Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




MEDICARE COMPLIANCE REVIEW OF
BATON ROUGE GENERAL MEDICAL
           CENTER
     FOR CALENDAR YEARS
        2009 AND 2010


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Patricia Wheeler
                                               Regional Inspector General

                                                      December 2012
                                                      A-06-11-00065
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
inpatient hospital services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned. The DRG payment is, with certain exceptions, payment in full to
the hospital for all inpatient costs associated with the beneficiary’s stay.

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. Under the OPPS, Medicare pays for hospital outpatient services
on a rate-per-service basis that varies according to the assigned ambulatory payment
classification.

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these types of payments to hospitals using computer matching, data mining, and
analysis techniques. This review is part of a series of OIG reviews of Medicare payments to
hospitals for selected claims for inpatient and outpatient services.

Baton Rouge General Medical Center (the Hospital) is a 544-bed hospital located on two
campuses in Baton Rouge, Louisiana. According to CMS’s National Claims History data,
Medicare paid the Hospital approximately $156 million for 15,621 inpatient and 53,240
outpatient claims for services provided to beneficiaries during calendar years (CY) 2009 and
2010.

Our audit covered $4,135,369 in Medicare payments to the Hospital for 152 inpatient and 21
outpatient claims that we identified as potentially at risk for billing errors. These 173 claims had
dates of service in CYs 2009 and 2010.

OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.

SUMMARY OF FINDINGS

The Hospital complied with Medicare billing requirements for 125 of the 173 sampled inpatient
and outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare

                                                 i
billing requirements for the remaining 48 claims, resulting in overpayments totaling $372,913
for CYs 2009 and 2010. Specifically, 44 inpatient claims had billing errors resulting in
overpayments totaling $360,600, and 4 outpatient claims had billing errors resulting in
overpayments totaling $12,313. Overpayments occurred primarily because the Hospital did not
have adequate controls to prevent incorrect billing of Medicare claims, relied on physicians with
varying levels of knowledge regarding level-of-care decisions, and did not fully understand the
Medicare billing requirements.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $372,913, consisting of $360,600 in overpayments for
       the 44 incorrectly billed inpatient claims and $12,313 in overpayments for the 4
       incorrectly billed outpatient claims, and

   •   strengthen controls to ensure full compliance with Medicare requirements.

BATON ROUGE GENERAL MEDICAL CENTER COMMENTS AND OFFICE OF
INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the Hospital concurred with most of our findings and
recommendations and provided information regarding the corrective actions it has taken to
address the compliance issues identified in our report. The Hospital did not fully agree with our
finding that it incorrectly billed 39 claims involving inpatient stays that should have been billed
as outpatient or outpatient with observation services. For 6 of the 39 claims, the Hospital stated
that the attending physician ordered inpatient services and that the admissions were supported by
the criteria used by care management staff.

With respect to the six claims discussed above, we continue to maintain that these claims should
have been billed as outpatient or outpatient with observation services. A review by CMS’s
Medicare contractor confirmed our position. Therefore, we continue to recommend that the
overpayments be refunded to the Medicare contractor.




                                                 ii
                                                   TABLE OF CONTENTS

                                                                                                                                        Page

INTRODUCTION........................................................................................................................1

      BACKGROUND ...................................................................................................................1
         Hospital Inpatient Prospective Payment System ...........................................................1
         Hospital Outpatient Prospective Payment System .........................................................1
         Hospital Payments at Risk for Incorrect Billing ............................................................1
         Medicare Requirements for Hospital Claims and Payments .........................................2
         Baton Rouge General Medical Center ...........................................................................3

      OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................3
         Objective ........................................................................................................................3
         Scope ..............................................................................................................................3
         Methodology ..................................................................................................................3

FINDINGS AND RECOMMENDATIONS ..............................................................................4

      BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS ....................................5
          Incorrectly Billed as Inpatient Services .........................................................................5
          Incorrectly Billed as Separate Inpatient Stay .................................................................5

      BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS ................................5
          Incorrect Number of Units .............................................................................................5
          Incorrectly Billed as Separate Services or Procedure Not Performed ...........................6

      RECOMMENDATIONS .......................................................................................................6

      BATON ROUGE GENERAL MEDICAL CENTER COMMENTS AND
       OFFICE OF INSPECTOR GENERAL RESPONSE ..........................................................6

APPENDIXES:

      A: RISK AREAS REVIEWED AND BILLING ERRORS

      B: BATON ROUGE GENERAL MEDICAL CENTER COMMENTS




                                                                     iii
                                                 INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Medicare Part A provides inpatient hospital insurance
benefits and coverage of extended care services for patients after hospital discharge. Medicare
Part B provides supplementary medical insurance for medical and other health services,
including coverage of hospital outpatient services.

CMS contracts with Medicare administrative contractors (MAC) to, among other things, process
and pay claims submitted by hospitals.

Hospital Inpatient Prospective Payment System

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
inpatient hospital services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, payment in full to the hospital for all inpatient costs
associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. 1 The OPPS is effective for services furnished on or after August
1, 2000. Under the OPPS, Medicare pays for hospital outpatient services on a rate-per-service
basis that varies according to the assigned ambulatory payment classification (APC). CMS uses
Healthcare Common Procedure Coding System (HCPCS) codes and descriptors to identify and
group the services within each APC group. 2 All services and items within an APC group are
comparable clinically and require comparable resources.

Hospital Payments at Risk for Incorrect Billing

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these types of payments to hospitals using computer matching, data mining, and


1
    In 2009, SCHIP was formally redesignated as the Children’s Health Insurance Program.
2
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.

                                                         1
analysis techniques. Examples of the types of claims at risk for noncompliance included the
following:

     •   inpatient short stays,

     •   inpatient claims paid in excess of charges,

     •   inpatient same-day discharges and readmissions,

     •   inpatient claims billed with high-severity-level DRG codes,

     •   inpatient hospital-acquired conditions and present-on-admission indicators, 3

     •   inpatient manufacturer credits for replaced medical devices,

     •   outpatient claims with payments greater than $25,000, and

     •   outpatient claims billed with modifier -59.

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”

This review is part of a series of OIG reviews of Medicare payments to hospitals for selected
claims for inpatient and outpatient services.

Medicare Requirements for Hospital Claims and Payments

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items and
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” In addition, section 1833(e) of the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider.

Federal regulations (42 CFR § 424.5(a)(6)) state that the provider must furnish to the Medicare
contractor sufficient information to determine whether payment is due and the amount of the
payment.

The Medicare Claims Processing Manual (the Manual), Pub. No. 100-04, chapter 1, section
80.3.2.2, requires providers to complete claims accurately so that Medicare contractors may
process them correctly and promptly. Chapter 23, section 20.3, of the Manual states that
providers must use HCPCS codes for most outpatient services.



3
 “Present on admission” refers to diagnoses that are present at the time the order for inpatient admission occurs.
Conditions that develop during an outpatient encounter—including an emergency department visit, observation, or
outpatient surgery—are also considered present on admission. Acute care hospitals are required to complete the
present-on-admission indicator field on the Medicare inpatient claim for every diagnosis billed.

                                                         2
Baton Rouge General Medical Center

Baton Rouge General Medical Center (the Hospital) is a 544-bed hospital located in Baton
Rouge, Louisiana. According to CMS’s National Claims History data, Medicare paid the
Hospital approximately $156 million for 15,621 inpatient and 53,240 outpatient claims for
services provided to beneficiaries during calendar years (CY) 2009 and 2010.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.

Scope

Our audit covered $4,135,369 in Medicare payments to the Hospital for 173 claims that we
judgmentally selected as potentially at risk for billing errors (Appendix). These 173 claims had
dates of service in CYs 2009 and 2010 and consisted of 152 inpatient and 21 outpatient claims.

We focused our review on the risk areas that we had identified during and as a result of prior
OIG reviews at other hospitals. We evaluated compliance with selected billing requirements and
subjected a limited number of claims to focused medical review to determine whether the
services were medically necessary.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. Our review enabled us to establish
reasonable assurance of the authenticity and accuracy of the data obtained from the National
Claims History file, but we did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims the Hospital submitted for Medicare reimbursement.

We performed our audit work from December 2011 to July 2012.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    extracted the Hospital’s inpatient and outpatient paid claim data from CMS’s National
        Claims History file for CYs 2009 and 2010;

   •    obtained information on known credits for replacement cardiac medical devices from the
        device manufacturers for CYs 2009 and 2010;

                                                 3
   •   used computer matching, data mining, and analysis techniques to identify claims
       potentially at risk for noncompliance with selected Medicare billing requirements;

   •   selected a judgmental sample of 173 claims (152 inpatient and 21 outpatient) for detailed
       review;

   •   reviewed available data from CMS’s Common Working File for the sampled claims to
       determine whether the claims had been cancelled or adjusted;

   •   reviewed the itemized bills and medical record documentation the Hospital provided to
       support the sampled claims;

   •   requested that the Hospital conduct its own review of the sampled claims to determine
       whether the services were billed correctly;

   •   used CMS’s Medicare contractor medical review staff to determine whether a limited
       number of sampled claims met medical necessity requirements;

   •   discussed with Hospital personnel the incorrectly billed claims and the internal controls
       applicable to each area of noncompliance with Medicare requirements to determine the
       underlying causes of noncompliance;

   •   calculated the correct payments for those claims requiring adjustments; and

   •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The Hospital complied with Medicare billing requirements for 125 of the 173 sampled inpatient
and outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 48 claims, resulting in overpayments totaling $372,913 for
CYs 2009 and 2010. Specifically, 44 inpatient claims had billing errors resulting in
overpayments totaling $360,600, and 4 outpatient claims had billing errors resulting in
overpayments totaling $12,313. Overpayments occurred primarily because the Hospital did not
have adequate controls to prevent incorrect billing of Medicare claims, relied on physicians with
varying levels of knowledge regarding level-of-care decisions, and did not fully understand the
Medicare billing requirements. See the Appendix for a breakdown of billing errors by review
category.




                                                4
BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 44 of the 152 sampled inpatient claims. These
errors resulted in overpayments totaling $360,600.

Incorrectly Billed as Inpatient Services

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.”

For 39 of 152 sampled claims, the Hospital incorrectly billed Medicare Part A for beneficiary
stays that should have been billed as outpatient or outpatient with observation services. Pinnacle
Business Solutions, the Hospital’s MAC, reviewed 7 of the 39 claims and agreed that they were
incorrectly billed because the documentation did not support that an inpatient admission was
medically necessary and reasonable. The Hospital attributed the errors to its Care Management
staff, which did not review the claims until after the patients were discharged, and to its reliance
on physicians with varying levels of knowledge regarding level-of-care decisions. As a result of
these errors, the Hospital received overpayments totaling $334,973. 4

Incorrectly Billed as Separate Inpatient Stay

The Manual, chapter 3, section 40.2.5, states:

        When a patient is discharged/transferred from an acute care Prospective Payment
        System (PPS) hospital and is readmitted to the same acute care PPS hospital on
        the same day for symptoms related to, or for evaluation and management of, the
        prior stay’s medical condition, hospitals shall adjust the original claim generated
        by the original stay by combining the original and subsequent stay on a single
        claim.

For 5 of the 152 sampled claims, the Hospital billed Medicare separately for related discharges
and readmissions within the same day. The Hospital stated that its process for same-day
readmissions did not follow Medicare policy. Billing staff reviewed only diagnosis code
information rather than conducting clinical assessments of the reasons for the two stays. As a
result of these errors, the Hospital received overpayments totaling $25,627.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 4 of the 21 sampled outpatient claims. These errors
resulted in overpayments totaling $12,313.


4
  The Hospital may be able to bill Medicare Part B for some services related to some of these incorrect Medicare
Part A claims. We were unable to determine the effect that billing Medicare Part B would have on the overpayment
amount because these services had not been billed or adjudicated by the Medicare administrative contractor prior to
the issuance of our report.

                                                         5
Incorrect Number of Units

Section 1833(e) of the Act precludes payment to any provider of services or other person without
information necessary to determine the amount due the provider. Additionally, the Manual,
chapter 1, section 80.3.2.2, states: “In order to be processed correctly and promptly, a bill must
be completed accurately.” In addition, chapter 4, section 20.4, of the Manual states: “The
definition of service units … is the number of times the service or procedure being reported was
performed.”

For 1 of the 21 sampled claims, the Hospital submitted the claim to Medicare with the incorrect
number of units of a drug administrated. The Hospital attributed this error to a human error by
the pharmacy staff that the billing staff failed to recognize while finalizing the claims for
submission. As a result of this error, the Hospital received an overpayment of $10,666.

Incorrectly Billed as Separate Services or Procedure Not Performed

The Manual, chapter 1, section 80.3.2.2, states: “In order to be processed correctly and
promptly, a bill must be completed accurately ….” In addition, chapter 23, section 20.9.1.1(B),
states: “The ‘-59’ modifier is used to indicate a distinct procedural service … this may represent
a different session or patient encounter, different procedure or surgery, different site, or organ
system, separate incision/excision, or separate injury (or area of injury in extensive injuries).”

The Manual, chapter 4, section 20.6.4(C), states that planned procedures that are not started may
not be claimed.

For 3 of the 21 sampled claims, the Hospital incorrectly billed Medicare separately for services
that were not distinct from one another (2 errors) or for a planned procedure that was not started
(1 error). The Hospital stated that these errors occurred primarily because of human error, staff
oversights, and ambiguous coding guidance issued by the American Medical Association. As a
result of these errors, the Hospital received overpayments totaling $1,647.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $372,913, consisting of $360,600 in overpayments for
       the 44 incorrectly billed inpatient claims and $12,313 in overpayments for the 4
       incorrectly billed outpatient claims, and

   •   strengthen controls to ensure full compliance with Medicare requirements.

BATON ROUGE GENERAL MEDICAL CENTER COMMENTS AND OFFICE OF
INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the Hospital concurred with most of our findings and
recommendations and provided information regarding the corrective actions it has taken to

                                                 6
address the compliance issues identified in our report. The Hospital did not fully agree with our
finding that it incorrectly billed 39 claims involving inpatient stays that should have been billed
as outpatient or outpatient with observation services. For 6 of the 39 claims, the Hospital stated
that the attending physician ordered inpatient services and that the admissions were supported by
the criteria used by care management staff.

In addition, the Hospital provided a clarification on the guidance reported in the “Incorrectly
Billed as Separate Services or Procedure Not Performed” section. The Hospital’s comments are
included in their entirety as Appendix B.

With respect to the six claims discussed above, we continue to maintain that these claims should
have been billed as outpatient or outpatient with observation services. A review by CMS’s
Medicare contractor confirmed our position. Therefore, we continue to recommend that the
overpayments be refunded to the Medicare contractor. Additionally, based on the Hospital’s
clarification on the guidance, we revised that finding.




                                                 7
APPENDIXES
                    APPENDIX A: RISK AREAS REVIEWED AND BILLING ERRORS



                                                                           Claims
                                                             Value Of       With     Value Of
                                                   Sampled   Sampled       Over-      Over-
                    Risk Area                       Claims    Claims      payments   payments
Inpatient short stays                                56       $404,381       33      $227,358

Inpatient claims paid in excess of charges           28       679,749         6       107,615

Inpatient same-day discharges and readmissions       13        291,041        5        25,627
Inpatient claims billed with high-severity-level
                                                     26        407,360        0            0
diagnosis-related group codes
Inpatient hospital-acquired conditions and
                                                     24      2,114,901        0            0
present-on-admission indicators
Inpatient manufacturer credits for replaced
                                                      5         50,440        0            0
medical devices
 Inpatient Total                                     152     $3,947,872      44      $360,600


Outpatient claims with payments greater than
                                                       4     $177,419        1       $10,666
$25,000
Outpatient claims billed with modifier -59            17       10,079        3         1,647

 Outpatient Total                                     21      $187,498       4       $12,313



 Inpatient and Outpatient Total                      173     $4,135,369      48      $372,913
